Audit Report




OIG-11-034
Audit of the Financial Management Service’s Fiscal Years 2010
and 2009 Schedules of Non-Entity Government-Wide Cash
November 17, 2010




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             November 17, 2010


            MEMORANDUM FOR DAVID A. LEBRYK, COMMISSIONER
                           FINANCIAL MANAGEMENT SERVICE

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Audit of the Financial Management Service’s
                                    Fiscal Years 2010 and 2009 Schedules of Non-Entity
                                    Government-wide Cash


            I am pleased to transmit the attached audited Financial Management Service’s
            (FMS) Fiscal Years 2010 and 2009 Schedules of Non-Entity Government-wide
            Cash (Schedules). Under a contract monitored by the Office of Inspector General,
            KPMG LLP, an independent certified public accounting firm, performed an audit of
            the Schedules. The contract required that the audit be performed in accordance
            with generally accepted government auditing standards; applicable provisions of
            Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements
            for Federal Financial Statements, as amended; and the GAO/PCIE Financial Audit
            Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                    •   Independent Auditors’ Report;
                    •   Independent Auditors’ Report on Internal Control Over Financial
                        Reporting; and
                    •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit of the Schedules, KPMG LLP found:

                    •   the Schedules present fairly, in all material respects, the balance of
                        Non-Entity Government-wide Cash as of September 30, 2010 and 2009,
                        in conformity with U.S. generally accepted accounting principles,
Page 2


        •   certain deficiencies in internal control over financial reporting that were
            considered collectively to be a significant deficiency 1 (described below),
            and
        •   no instances of reportable noncompliance with laws and regulations tested.

KPMG LLP concluded that FMS’ information technology general controls do not
provide reasonable assurance that: (1) an adequate security management program is
in place; (2) access to computer resources (data, equipment, and facilities) is
reasonable and restricted to authorized individuals; (3) changes to information
system resources are authorized and systems are configured and operated securely
and as intended; and (4) incompatible duties are effectively segregated. Collectively
the conditions observed and reported on could compromise FMS’ ability to ensure
security over sensitive financial data related to Government-wide Cash and the
reliability of key systems.

In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated from
an audit performed in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the Schedules or conclusions about the effectiveness of internal control
or compliance with laws and regulations. KPMG LLP is responsible for the attached
auditors’ reports dated November 12, 2010 and the conclusions expressed in the
reports. However, our review disclosed no instances where KPMG LLP did not
comply, in all material respects, with generally accepted government auditing
standards.

Should you have any questions, please contact me at (202) 927-5789, or a member
of your staff may contact Mark S. Levitt, Manager, Financial Audits at
(202) 927-5076.


Attachment

cc:     Richard L. Gregg
        Acting Fiscal Assistant Secretary



1
  A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged with
governance.
                 U.S. DEPARTMENT OF THE TREASURY
                 FINANCIAL MANAGEMENT SERVICE

Independent Auditors’ Reports and Schedules of Non-Entity Government-Wide Cash

                         September 30, 2010 and 2009
                               U.S. DEPARTMENT OF THE TREASURY
                                FINANCIAL MANAGEMENT SERVICE



                                          Table of Contents



                                                                 Page

Independent Auditors’ Report                                       1

Independent Auditors’ Report on Internal Control                   2

Independent Auditors’ Report on Compliance and Other Matters       6

Schedules of Non-Entity Government-wide Cash                       7

Notes to the Schedules of Non-Entity Government-wide Cash          8

Attachment – Management’s Response                                11
                              KPMG LLP
                              2001 M Street, NW
                              Washington, DC 20036-3389



                                          Independent Auditors’ Report


Inspector General, U.S. Department of the Treasury
Commissioner of the Financial Management Service:

We have audited the accompanying Schedules of Non-Entity Government-wide Cash (GWC) of the U.S.
Department of the Treasury’s Financial Management Service (FMS) as of September 30, 2010 and 2009,
(hereinafter referred to as the Schedules). These Schedules are the responsibility of FMS management.
Our responsibility is to express an opinion on these Schedules based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain
reasonable assurance about whether the Schedules are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
FMS’ internal control over financial reporting related to GWC. Accordingly, we express no such opinion.
An audit also includes examining, on a test basis, evidence supporting the amounts and disclosures in the
Schedules, assessing the accounting principles used and significant estimates made by management, as
well as evaluating the overall Schedule presentation. We believe that our audits provide a reasonable basis
for our opinion.

In our opinion, the Schedules referred to above present fairly, in all material respects, the balance of Non-
Entity Government-wide Cash as of September 30, 2010 and 2009, in conformity with U.S. generally
accepted accounting principles.

In accordance with Government Auditing Standards, we have also issued our reports dated November 12,
2010, on our consideration of FMS’ internal control over financial reporting related to GWC and our tests
of its compliance with certain provisions of laws and regulations related to GWC. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial reporting
or on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




November 12, 2010




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, U.S. Department of the Treasury
Commissioner of the Financial Management Service:

We have audited the Schedules of Non-Entity Government-wide Cash (GWC) of the U.S. Department of
the Treasury’s Financial Management Service (FMS) as of September 30, 2010 and 2009 (hereinafter
referred to as the Schedules), and have issued our report thereon dated November 12, 2010.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain
reasonable assurance about whether the Schedules are free of material misstatement.

The management of FMS is responsible for establishing and maintaining effective internal control related
to GWC. In planning and performing our fiscal year 2010 audit, we considered FMS’ internal control over
financial reporting related to GWC by obtaining an understanding of the design effectiveness of FMS’
internal control related to GWC, determining whether internal controls related to GWC had been placed in
operation, assessing control risk, and performing tests of controls as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the Schedules, but not for the purpose of
expressing an opinion on the effectiveness of FMS’ internal control over financial reporting related to
GWC. Accordingly, we do not express an opinion on the effectiveness of FMS’ internal control over
financial reporting related to GWC. We did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting related to GWC was for the limited purpose
described in the third paragraph of this report and was not designed to identify all deficiencies in internal
control over financial reporting related to GWC that might be deficiencies, significant deficiencies, or
material weaknesses. In our fiscal year 2010 audit, we did not identify any deficiencies in internal control
over financial reporting related to GWC that we consider to be material weaknesses, as defined above.
However, we identified certain deficiencies in internal control over financial reporting related to GWC
described in Exhibit I that we consider collectively to be a significant deficiency in internal control over
financial reporting related to GWC. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough to merit
attention by those charged with governance.


                                                                       2
                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
FMS’ response to the finding identified in our audit is presented in a separate Attachment to this report.
We did not audit FMS’ response and, accordingly, we express no opinion on it.

Exhibit II presents the status of the prior year significant deficiency.

This report is intended solely for the information and use of FMS management, the U.S. Department of the
Treasury Office of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress, and is not intended to be and should not be used by anyone other than these specified parties.




November 12, 2010




                                                        3
                                                                                                   EXHIBIT I

                                     U.S. Department of the Treasury

                                      Financial Management Service

                        Schedules of Non-Entity Government-wide Cash (GWC)

                  Significant Deficiency in Internal Control Over Financial Reporting

Information Technology Controls Over Systems Managed by FMS and Third Parties (Repeat
Condition)

FMS relies on an extensive array of information technology (IT) systems to manage Non-Entity
Government-wide Cash (GWC). Internal controls over these operations are essential to ensure the
integrity, confidentiality, and reliability of critical data while reducing the risk of errors, fraud, and other
illegal acts.

Our review of IT controls covered general and selected application controls over key systems related to
GWC. General controls are the structure, policies and procedures that apply to an entity’s overall
computer systems. They include security management, access controls, configuration management,
segregation of duties, and contingency planning. Business process application controls involve input,
processing, and output controls related to specific IT applications.

In fiscal year 2010, we noted that FMS made progress in several areas in its efforts to address this finding.
Despite these improvements, our tests revealed that the necessary policies and procedures to detect and
correct control and functionality weaknesses have not been consistently documented, implemented, or
enforced. FMS’ IT general controls do not provide reasonable assurance that:

    1. An adequate security management program is in place;

    2. Access to computer resources (data, equipment, and facilities) is reasonable and restricted to
       authorized individuals;

    3. Changes to information system resources are authorized and systems are configured and operated
       securely and as intended; and

    4. Incompatible duties are effectively segregated.

Collectively the conditions we observed and reported on could compromise FMS’ ability to ensure security
over sensitive financial data related to GWC and the reliability of key systems.

Because of the sensitivity of the information, we issued a separate sensitive but unclassified report to the
Commissioner of FMS detailing the conditions identified and our recommendations for corrective action.

Management's Response:
Management has prepared an official response presented as a separate attachment to this report. In
summary, management agreed with our finding and its comments were responsive to our
recommendations.




                                                       4
                                                                                     EXHIBIT II
                                 U.S. Department of the Treasury

                                 Financial Management Service

                    Schedules of Non-Entity Government-wide Cash (GWC)

                           Status of Prior Year Significant Deficiency



                       Finding                             Action Complete       Action in
                                                                                 Progress


Information Technology Controls Over Systems Managed by                      Partially resolved
FMS and Third Parties                                                        and repeated as a
                                                                                 significant
                                                                             deficiency for FY
                                                                                    2010




                                               5
                              KPMG LLP
                              2001 M Street, NW
                              Washington, DC 20036-3389



                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U.S. Department of the Treasury
Commissioner of the Financial Management Service:

We have audited the Schedules of Non-Entity Government-wide Cash (GWC) of the U.S. Department of
the Treasury’s Financial Management Service (FMS) as of September 30, 2010 and 2009 (hereinafter
referred to as the Schedules), and have issued our report thereon dated November 12, 2010.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain
reasonable assurance about whether the Schedules are free of material misstatement.

The management of FMS is responsible for complying with laws and regulations applicable to the
amounts reflected in the Schedules. As part of obtaining reasonable assurance about whether the
Schedules are free of material misstatement, we performed tests of compliance with certain provisions of
laws and regulations related to GWC, noncompliance with which could have a direct and material effect
on the determination of the amounts reflected in the Schedules, and certain provisions of other applicable
laws and regulations specified in OMB Bulletin No. 07-04. We limited our tests of compliance to the
provisions described in the preceding sentence, and we did not test compliance with all laws and
regulations applicable to FMS. However, providing an opinion on compliance with those provisions was
not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph disclosed no instances of
noncompliance or other matters that are required to be reported herein under Government Auditing
Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of FMS management, the U.S. Department of
the Treasury Office of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress, and is not intended to be and should not be used by anyone other than these specified parties.




November 12, 2010




                                                                   6
                                   KPMG LLP is a Delaware limited liability partnership,
                                   the U.S. member firm of KPMG International Cooperative
                                   (“KPMG International”), a Swiss entity.
                     U. S. DEPARTMENT OF THE TREASURY
                      FINANCIAL MANAGEMENT SERVICE

                   Schedules of Non-Entity Government-Wide Cash
                            September 30, 2010 and 2009

                                    (In Thousands)



                                                                    2010              2009

Non-entity government-wide cash
(Notes 1 and 2)                                             $ 303,875,884      $   269,443,060




             The accompanying notes are an integral part of these Schedules.
                                          7
                           U. S. DEPARTMENT OF THE TREASURY
                            FINANCIAL MANAGEMENT SERVICE

                 Notes to the Schedules of Non-Entity Government-Wide Cash
                                 September 30, 2010 and 2009

                                         (In Thousands)


NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

  A. Reporting Entity

     The Financial Management Service (FMS) is a bureau of the U. S. Department of the Treasury
     (Treasury). FMS’ mission is to improve the quality of the Federal Government’s financial
     management. FMS’ commitment and responsibility is to help its customers achieve success. FMS
     does this by linking program and financial management objectives and by providing financial
     services, information, advice, and assistance to its customers. FMS serves taxpayers, Treasury,
     federal program agencies, and government policy makers.

     The financial activities of FMS are affected by, and are dependent upon, those of the Treasury and
     the Federal Government as a whole. Thus, the accompanying schedules do not reflect the results of
     all financial decisions and activities applicable to FMS as if it were a stand-alone entity.

     Non-Entity accounts are those accounts that FMS holds but are not available to FMS in its
     operations. For example, FMS accounts for certain cash that the Federal Government collects and
     holds on behalf of the U.S. Government or other entities. These schedules include the Non-Entity
     government-wide cash accounts.

  B. Basis of Accounting

     The standards used in the preparation of the accompanying schedules are issued by the Federal
     Accounting Standards Advisory Board, as the body authorized to establish generally accepted
     accounting principles for Federal Government entities. Accordingly, the accompanying schedules
     are prepared in accordance with U.S. generally accepted accounting principles.

     The accompanying schedules are different from the financial reports prepared by FMS pursuant to
     OMB directives that are used to monitor and control FMS’ use of budgetary resources.

  C. Non-entity Government-wide Cash

     Non-entity government-wide cash is held in depositary institutions or Federal Reserve accounts.

     Operating Cash of the U.S. Government represents balances from tax collections, customs duties,
     other revenue, federal debt receipts, and other various receipts net of cash outflows for budget
     outlays and other payments held in the Federal Reserve Banks, foreign and domestic financial
     institutions, U. S. Treasury Tax and Loan accounts (TT&L). Outstanding checks are netted against
     operating cash until they are cleared by the Federal Reserve System.




                This information is an integral part of the accompanying Schedules.
                                                  8
                        U. S. DEPARTMENT OF THE TREASURY
                         FINANCIAL MANAGEMENT SERVICE

               Notes to the Schedules of Non-Entity Government-Wide Cash
                               September 30, 2010 and 2009

                                       (In Thousands)




C. Non-entity Government-wide Cash (Continued)

   Agencies can deposit funds that are submitted to them directly into either a Federal Reserve
   Treasury General Account (TGA) or a local TGA depositary. The TGA is maintained at the
   Federal Reserve Bank of New York (FRBNY) and functions as the government’s checking account
   for deposits and disbursements of public funds. The Treasury Tax and Loan program includes
   about 9,000 depositaries that accept tax payments and remit them the day after receipt to FRBNY’s
   TGA. Certain TT&L depositaries also hold Non-entity Government-wide Cash in interest bearing
   accounts. Cash in the TGA and the TT&L program is restricted for Government-wide operations.
   The balances in these TGA accounts are transferred to the FRBNY’s TGA at the end of each day.

   U. S. TT&L accounts include funds invested through the Term Investment Option program and the
   Reverse Repurchase Agreement program (Repo). Under the Term Investment Option program,
   Treasury auctions funds for a set term, usually in the range of 1 day to 3 weeks. Under the Repo
   program, Treasury invests funds through overnight reverse repurchase agreements. However,
   Treasury reserves the right to call the funds prior to maturity under special circumstances. These
   investment programs were suspended in 2010 by Treasury due to market conditions.

   The Supplementary Financing Program (SFP) Account is maintained at FRBNY. SFP is a
   temporary program announced by Treasury and the Federal Reserve to provide emergency cash for
   Federal Reserve initiatives aimed at addressing the ongoing crisis in financial markets. The
   program consists of a series of Treasury bills, apart from Treasury's current borrowing program.

   Other cash is mostly comprised of Automated Clearinghouse transfers, Fedwire transfers and U.S.
   currency held by the Department of State.




              This information is an integral part of the accompanying Schedules.
                                                9
                           U. S. DEPARTMENT OF THE TREASURY
                            FINANCIAL MANAGEMENT SERVICE

                  Notes to the Schedules of Non-Entity Government-Wide Cash
                                  September 30, 2010 and 2009

                             (In Thousands)
NOTE 2. NON-ENTITY GOVERNMENT-WIDE CASH

  Non-Entity Government-wide Cash includes the Operating Cash of the U.S. Government, managed by
  Treasury, and foreign currency maintained by various U.S. disbursing offices, at September 30, 2010
  and 2009, as follows:

                                                                         2010                 2009
   Operating Cash of the U.S. Government:
   Held in Depository Institutions                               $    2,032,508        $      2,062,435
   Held in the Federal Reserve Account                             107,887,764             108,324,488
   Held in the Supplementary Financing Progam Account              199,961,582             164,944,579
   Subtotal                                                        309,881,854             275,331,502
   Outstanding Checks                                               (6,305,730)             (6,280,034)
   Subtotal                                                        303,576,124             269,051,468
   Other Cash                                                           297,194                 366,074
   Subtotal                                                        303,873,318             269,417,542
   Foreign Currency                                                       2,566                  25,518
   Total                                                         $ 303,875,884         $   269,443,060


  Operating Cash of the Federal Government held by depositary institutions is either insured (for
  balances up to $250,000) by the Federal Deposit Insurance Corporation (FDIC) or collateralized by
  securities pledged by the depositary institution, or through securities held under reverse repurchase
  agreements.




                 This information is an integral part of the accompanying Schedules.
                                                  10
     Attachment




11
     Attachment




12
